No. 20-641
In the

Supreme Court of the United States
LSP TRANSMISSION HOLDINGS, LLC,
Petitioner,
v.
KATIE SIEBEN, DAN M. LIPSCHULTZ, MATTHEW
SCHUERGER, JOHN TUMA, VALERIE MEANS,
STEVE KELLEY, ITC MIDWEST LLC, NORTHERN
STATES POWER COMPANY D/B/A XCEL ENERGY,
Respondents.
On Petition for Writ of Certiorari to the United
States Court of A ppeals for the Eighth Circuit
BRIEF OF AMICI CURIAE
RESALE POWER GROUP OF IOWA, COALITION OF
MISO TRANSMISSION CONSUMERS, INDUSTRIAL
ENERGY CONSUMERS OF AMERICA AND THE
AMERICAN FOREST & PAPER ASSOCIATION
IN SUPPORT OF PETITIONER
Robert A. Weishaar, Jr.
McNees Wallace
and Nurick LLC
1200 G Street, NW, Suite 800
Washington, DC 20005
(202) 898-5700

Kirk Howard Betts
Counsel of Record
James H. Holt
David E. Crawford
Betts & Holt LLP
1101 Connecticut Ave., NW,
Suite 450
Counsel for Amici Curiae
Washington, DC 20036
Coalition of MISO
(202) 530-3380
Transmission Customers,
kbetts@bettsandholt.com
Industrial Energy
Consumers of America and Counsel for Amicus Curiae
Resale Power Group of Iowa
American Forest
and Paper Association

(For Continuation of Appearances See Inside Cover)
300215

Kenneth R. Stark
McNees Wallace
and Nurick LLC
100 Pine Street
Harrisburg, Pennsylvania 17101
(717) 232-8000
Counsel for Amici Curiae
Coalition of MISO
Transmission Customers,
Industrial Energy Consumers
of America and American
Forest and Paper Association

i
TABLE OF CONTENTS
Page
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . . i
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . . .  iii
INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
INTERESTS OF AMICI CURIAE  . . . . . . . . . . . . . . . . 2
SUMMARY OF ARGUMENT  . . . . . . . . . . . . . . . . . . . . 7
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
I.

The Minnesota Statute Explicitly Targets
Interstate Commerce . . . . . . . . . . . . . . . . . . . . . . 10

II. The Minnesota Statute Indisputably
Restra ins T rade In T he Int erstat e
Transmission Market . . . . . . . . . . . . . . . . . . . . . . 14
III. The Eighth Circuit’s A nalysis of the
Purpose and Effects of The Statute is
Superficial and Inaccurate: The Statute
Plainly Discriminates Against Non-Local
Competitors, With Harm to Consumers . . . . . . 19

ii
TABLE OF CONTENTS
Page
A. The “Long-Standing” Minnesota State
Practice That the Statute Seeks to
Preserve Only Allows Transmission
Facilities to Be Built By The Holder
of the Exclusive Franchise For That
Territory; The ROFR Thus Effectively
Excludes Only Out-of-State Project
Sponsors and Is In No Sense “Neutral” . . 20
B. The Commerce Clause Does Not
Authorize States to Determine How
Much Interstate Commerce Should
Be Allowed Within Their Borders . . . . . . . 21
IV. By Impeding Transmission Competition,
ROFR Laws Increase the Energy Costs
and Operating Costs of Manufacturers,
Industrial Consumers, and Large-Scale
Electric Purchasers . . . . . . . . . . . . . . . . . . . . . . . 23
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26

iii
TABLE OF CITED AUTHORITIES
Page
CASES
Braintree Electric Light Dept. v. FERC,
550 F.3d 6 (D.C. Cir. 2008) . . . . . . . . . . . . . . . . . . . . . 15
City of Philadelphia v. New Jersey,
437 U.S. 617 (1978)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
LSP Transmission Holdings, LLC v. Sieben,
954 F.3d 1018 (8th Cir. 2020) . . . . . . . . . . . . . . . . . . 2, 7
Michigan-Wisconsin Pipe Line Co. v. Calvert,
347 U.S. 157 (1954)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
Midwest ISO Transmission Owners v. FERC,
373 F.3d 1361 (D.C. Cir. 2004) . . . . . . . . . . . .  12, 17, 19
New York v. FERC,
535 U.S. 1 (2002) . . . . . . . . . . . . . . . . . . . . . . . . . . . 8, 13
Oregon Waste Systems, Inc. v.
Department of Environmental Quality of Ore.,
511 U.S. 93 (1994)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
Otter Tail Power Co. v. United States,
410 U.S. 366 (1973)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 16
Public Util. Dist. No. 1
of Snohomish County v. FERC,
272 F.3d 607 (D.C. Cir. 2001) . . . . . . . . . . . . . . . . 12, 14

iv
Cited Authorities
Page
Raymond Motor Transp. Inc. v. Rice,
434 U.S. 429 (1978) . . . . . . . . . . . . . . . . . . . . . . . . . . . 16
Transmission Access Policy
Study Group v. FERC,
225 F.3d 667 (D.C. Cir. 2000) . . . . . . . . . . . . . . . . . . . . 8
STATUTES
15 U.S.C. § 717(c) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22
16 U.S.C. § 824(a) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
16 U.S.C. § 824(b)(1) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
Iowa Stat. § 478.16 (2020)  . . . . . . . . . . . . . . . . . . . . . . . . . 2
Minn. Stat. § 216B.246 . . . . . . . . . . . . . . . . . . .  1, 10, 11, 12
ORDERS
18 CFR Part 35 Transmission Planning and
Cost Allocations, Order No. 1000, 136 FERC
¶61,051 (2011), order on reh’g, Order No. 1000-A,
139 FERC ¶61,132 (2012).  . . . . . . . . . . . . . . . . . . . . . . 8

v
Cited Authorities
Page
Promoting Wholesale Competition Through Open
Access Non-Discriminatory Transmission
Services by Public Utilities; Recovery of
Stranded Costs by Public Utilities and
Transmitting Utilities, Order No. 888, 75 FERC
¶61,080 (1996) order on reh’g, Order No. 888-A, 78
FERC ¶61,220 (1997) order on reh’g, Order No.
888-B, 81 FERC ¶61,248 (1997) order on reh’g,
Order No. 888-C, 82 FERC ¶61,046 (1998) . . . . . . . . 8
Re g i o n a l Tr a n s mi ss i o n O r ga ni z a ti o n s,
65 Fed. Reg. 810 (2000) (“Order No. 2000”)  . . . . . . . 8
OTHER AUTHORITIES
“Comments of American Manufacturers,” Electric
Transmission Incentives Policy Under Section
219 of the Federal Power Act, FERC Docket No.
RM20-10-000, Exhibit No. AMF-1 (Affidavit of
Michael P. Gorman) (filed July 1, 2020)  . . . . . . . . . . 23
Brief of Defendants-Appellees Lange, et al. at 2832, LSP Transmission Holdings, LLC v. Sieben,
954 F.3d 1018 (8th Cir. 2020) (No. 18-2559) . . . . . . . . 20
D u f f- Colema n EH V 3 4 5 kV Comp et it ive
Transmission Project Selection Report,
(December 20, 2016), available at https://cdn.
misoenergy.org/Duff-Coleman%20EHV%20
345kv%20Selection%20Report82339.pdf . . . . . . . . . 24

vi
Cited Authorities
Page
Final Draft MTEP20 Chapter 1-MTEP Overview,
available at https://cdn.misoenergy.org //
Final%20Draft%20MTEP20%20Chapter%20
1%20-%20MTEP%20Overview485663.pdf  . . . . . . . . 3
Hartburg-Sabine Junction 500 kV Competitive
Transmission Project, Selection Report,
(November 27, 2018), available at https://
cdn.misoenergy.org/Hartburg-Sabine%20
Junction%2050 0%20kV%20Selection%20
Report296754.pdf . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24
ITC Midwest LLP, ITC’s Continuing Response to
COVID-19 (2020), available at https://www.itcholdings.com/projects-and-initiatives/projectdetail/2015/10/21/cardinal-hickory-creektransmission-line-project . . . . . . . . . . . . . . . . . . . . .  3-4
ITC Midwest LLP, Pa r tners in Business
Presentation, October 21, 2020, available
at ht t p s: // w w w. it c - hold i ng s .c om /do c s /
default - sou rce /pa r tners-in-business /
midwest-partners-in-business-documents/
itcmw-pib-slides-fall-2020-final-for-website10-20-20.pdf?sfvrsn=e662cbf6_2 . . . . . . . . . . . .  25-26
MISO Quarter 3, 2020 Status Report, dated November
24, 2020, https://cdn.misoenergy.org/MTEP%20
Status%20Report%20Dashboard327160.pdf . . . . . . . 3

vii
Cited Authorities
Page
MISO Transmission Expansion Plan (2020),
available at https://w w w.misoenergy.org/
planning/planning/ . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

1
INTRODUCTION
The Amici Curiae are the Resale Power Group of
Iowa, the Coalition of MISO Transmission Consumers,
the Industrial Energy Consumers of America, and
the American Forest & Paper Association (together,
“Interstate Consumers”). 1 The Interstate Consumers are
organizations representing large-scale electric purchasers
that include municipal utilities and manufacturing and
commercial electric energy purchasers and consumers,
all of which depend on, and benefit from, federal policies
designed to reduce electric transmission costs through
increased competition in the interstate transmission
market. The Interstate Consumers support the Petition
for Writ of Certiorari (“Petition”) filed by Petitioner LSP
Transmission Holdings, LLP (“Petitioner”) herein because
the Minnesota Statute at issue (“Minnesota Statute”),
Minn. Stat. §216B.246 subd. 2, raises constitutionally
impermissible barriers to competition by granting a
right of first refusal (“ROFR”) to incumbent utilities for
the ownership, construction, and maintenance of new
transmission lines, thereby insulating those utilities from
competition while imposing higher costs on consumers
far beyond the state’s borders in contravention of federal
policy for lowering transmission costs through competition.
The Eighth Circuit’s decision that upheld the Minnesota
1. Pursuant to this Court’s Rule 37, the Interstate Consumers
state that no counsel for any party in this proceeding authored
this brief in whole or in part, and no person or entity other than
the constituent members of the Interstate Consumers made a
monetary contribution to the preparation or submission of this
brief. The Interstate Consumers notified counsel of record at least
10 days prior to filing regarding their intent to file this brief and
secured counsels’ written consent to its filing.

2
Statute’s protectionism 2 has already triggered retaliation
by its neighbor Iowa, which on June 30, 2020 adopted a
similar statute to protect its own incumbents, Iowa Stat.
§478.16 (2020), further impairing federal pro-competition
policies and effectively closing another market to out-ofstate companies like Petitioner. At a time when the nation’s
electric transmission infrastructure requires substantial
capital investment, allowing states to “play favorites”
does not serve the national or public interest, yet that is
precisely what the Minnesota Statute accomplishes – and
why the Interstate Consumers consider the Petition to be
vitally important and worthy of the Court’s consideration.
INTERESTS OF AMICI CURIAE
The electric transmission systems that serve the
Interstate Consumers are operated by the Midcontinent
Independent System Operator (“MISO”), a regional
transmission organization (“RTO”) regulated by the
Federal Energy Regulatory Commission (“FERC”) that
coordinates, controls, and monitors the transmission
systems of 51 utilities across 15 states and the province of
Manitoba. MISO is one of the largest power grid operators
in the world and is responsible for planning regional
transmission infrastructure and overseeing more than
65,000 miles of transmission lines that serve 42 million
customers. 3
Each year, MISO develops a MISO Transmission
Expansion Plan (“MTEP”) that evaluates various types
2. LSP Transmission Holdings, LLC v. Sieben, 954 F.3d 1018
(8th Cir. 2020).
3. See MISO (2020), available at https://www.misoenergy.
org/about/ (last visited December 3, 2020).

3
of transmission projects to meet local and regional
reliability standards and facilitate competition among
electric producers.4 Since MTEP 2003, $25.2 billion in
transmission infrastructure has gone into service.5 MTEP
2020 alone identifies 515 new transmission infrastructure
projects with a total projected cost of $4.159 billion.6
Multi-Value Projects are capital improvement projects
planned by MISO, each with a total cost of $20,000,000
or more, that promote reliability, resolve problems, or
confer other benefits across all, or a significant portion
of, the MISO system. The costs of Multi-Value Projects
located in Iowa, Minnesota, Missouri, and other MISO
states have been, or will be, recovered through the rates
paid by consumers across MISO.7
4. See MISO Transmission Expansion Plan (2020), available
at https://www.misoenergy.org/planning/planning/ (last visited
December 3, 2020).
5. MISO Quarter 3, 2020 Status Report, dated November
24, 2020, https://cdn.misoenergy.org/MTEP%20Status%20
Report%20Dashboard327160.pdf (last visited December 3, 2020).
6. Final Draft MTEP20 Chapter 1-MTEP Overview,
available at https://cdn.misoenergy.org//Final%20Draft%20
MTEP20%20Chapter%201%20-%20MTEP%20Overview485663.
pdf, p. 12 (last visited December 3, 2020). MTEP20 will be
presented to the MISO Board of Directors for final approval in
December 2020.
7. For example, the Cardinal-Hickory Creek Transmission
Line Project runs from northern Iowa into southern Wisconsin.
Upon completion, its costs will be recovered through rates
charged customers throughout MISO. See ITC Midwest LLP,
ITC’s Continuing Response to COVID-19 (2020), available at
https://www.itc-holdings.com/projects-and-initiatives/project-

4
The Minnesota Statute harms the Interstate
Consumers’ interests in at least three respects. First, the
absence of competition for new transmission projects in
Minnesota increases the rates of Interstate Consumers
in Minnesota, Iowa, and other states. An incumbent
Minnesota utility has little or no incentive to minimize
costs because such costs are passed directly through
rates to customers outside Minnesota. Second, the
Eighth Circuit’s decision to uphold the Minnesota Statute
has prompted Iowa and other states to enact their own
ROFR statutes to preclude competition for transmission
improvements within their own incumbent utilities’ service
areas, allowing monopoly pricing for portions of interstate
projects located in Iowa and other states to be recovered
from consumers in Minnesota. Third, the Minnesota
Statute and similar statutes in Iowa and other states
incentivize incumbent utilities to make choices related
to technical approach, project design, equipment and
material selection, and other matters without regard to
value engineering – an imperative in competition – which
seeks to achieve the same functionality, service life, and
reliability at a cost lower than MISO planners’ estimate. In
short, the Minnesota Statute and similar statutes produce
a “perfect storm” for consumers: monopoly pricing with
an incentive for “gold-plating” projects.
Resale Power Group of Iowa (“RPGI”) is a specialpurpose governmental entity organized in 1986 pursuant
to Iowa law to purchase electric supply, transmission,
and related services as agent for its members. Currently,
RPGI’s members include 24 Iowa municipal utilities, one
detail/2015/10/21/cardinal-hickory-creek-transmission-lineproject (last visited .December 3, 2020).

5
electric cooperative association, and one privately-owned
utility. RPGI is legally separate and fiscally independent
from other state and local governmental entities. Most
RPGI members purchase transmission service from ITC
Midwest LLC (“ITCM”) at formula rates approved by the
FERC and contained in MISO’s open access transmission
tariff. The rates paid by RPGI’s members allow ITCM
to recover the cost of, and earn a rate of return on,
transmission improvements. Since 2008, ITCM’s zonal
integration transmission service rates to RPGI’s members
have increased by 265.44% (11.17% annually compounded),
primarily because of transmission system construction
costs. 8
Coalition of MISO Transmission Customers
(“CMTC”) is a continuing ad hoc association of large
industrial and commercial endusers of electricity in the
Midwest operated to represent the interests of industrial
energy consumers before regulatory and legislative bodies.
CMTC has participated in MISO market/transmission
issues since the inception of that organization more than
20 years ago. CMTC member companies pay transmission
rates that are assessed by MISO transmission owners.
Some CMTC member facilities are assessed transmission
charges as a separate, stand-alone charge on invoices
assessed by market suppliers. Other CMTC facilities
pay for transmission charges on a bundled basis, as a
component of retail electricity charges that also includes
charges for generation and distribution service. CMTC has
actively supported competition for transmission projects
within the MISO stakeholder process, before FERC, and
8. In 2008, ITCM’s zonal NITS service rate was $2.654 kW/
month. In 2020, the same rate is $9.46 kW/month, compared with
the MISO average of $3.37/kW per month.

6
in United States Courts of Appeals. ROFR laws adopted
by states in the MISO region prevent the efficiency and
price-lowering benefits of competition for transmission
projects. CMTC’s members include manufacturers
facing significant domestic and international competition,
and increased energy costs impair CMTC members’
competitiveness.
Industrial Energy Consumers of America (“IECA”)
is a 501(c)(6) nonprofit member-led organization created
to promote the interests of manufacturing companies
for which the availability, use and cost of energy, power
or feedstock play a significant role in their ability to
compete in domestic and global markets. IECA is a
nonpartisan association of leading manufacturing
companies with $1.1 trillion in annual sales, over 4,000
facilities nationwide, and with more than 1.8 million
employees. IECA membership represents a diverse set of
industries including: chemicals, plastics, steel, iron ore,
aluminum, paper, food processing, fertilizer, insulation,
glass, industrial gases, pharmaceutical, building products,
automotive, independent oil refining, and cement. IECA
member companies operate facilities throughout the
Midwest and thus are directly affected by ROFR laws
that deny them the efficiency and price-lowering benefits
of competition for transmission projects. IECA’s members
include manufacturers facing significant domestic and
international competition. Increased electricity costs
impair IECA members’ competitiveness and directly
impact investment in domestic job creation.
American Forest & Paper Association (“AF&PA”)
is the national trade association of the paper and wood
products industry to advance public policies that promote

7
a strong and sustainable U.S. forest products industry
in the global marketplace. AF&PA’s member companies
represent about 85% of U.S. pulp, paper, paper-based
packaging and tissue products manufactured in the U.S.
and include small, medium and large companies with
family, private and public-ownership and operations
in rural and urban communities across the country.
AF&PA member company facilities in the paper and
wood products industry, like CMTC and IECA member
companies, pay transmission charges as a growing portion
of their total charges for electricity. AF&PA members
include manufacturers facing significant domestic and
international competition. Increased energy costs impair
AF&PA members’ competitiveness, a concern that has
been magnified over the last year due to the economic
and health challenges associated with the COVID-19
pandemic.
SUMMARY OF ARGUMENT
The Petition seeks this Court’s review of the Eighth
Circuit’s decision to uphold the Minnesota Statute
in LSP Transmission Holdings, LLC v. Sieben. The
Minnesota Statute protects local incumbent utilities from
competition by out-of-state entities seeking to enter the
interstate transmission market in Minnesota, thereby
undermining FERC’s well-established jurisdiction to
regulate transmission service to ensure that prices
paid by consumers for transmission service are just and
reasonable, as required by Section 205(a) of the Federal
Power Act (“FPA“).9

9. 16 U.S.C. §824(a).

8
FERC created RTOs like MISO to, inter alia,
overcome the unwillingness of vertically-integrated
utilities (that is, utilities that owned electric generation,
transmission, and distribution facilities) to connect
independently-owned electric generators and to innovate
and invest in transmission system improvements.
Beginning with the issuance of Order No. 888 in 199610
and continuing through Order No. 2000 in 199911 and
Order No. 1000 in 2011,12 FERC has consistently sought
to bring the power of competition to bear on the interstate
transmission market to lower costs, stimulate investment,
and encourage innovation.
The Minnesota Statute, however, quashes competition
by granting incumbent utilities the exclusive right of first
refusal to own, construct, and maintain new transmission
facilities. The roster of eligible instate incumbents was
thus fixed as of the time the legislation was adopted.
10. Promoting Wholesale Competition Through Open Access
Non-Discriminatory Transmission Services by Public Utilities;
Recovery of Stranded Costs by Public Utilities and Transmitting
Utilities, Order No. 888, 75 FERC ¶61,080 (1996) (“Order No.
888”), order on reh’g, Order No. 888-A, 78 FERC ¶61,220 (1997),
order on reh’g, Order No. 888-B, 81 FERC ¶61,248 (1997), order
on reh’g, Order No. 888-C, 82 FERC ¶61,046 (1998) (“Order No.
888-C”), aff’d in relevant part sub nom. Transmission Access
Policy Study Group v. FERC, 225 F.3d 667 (D.C. Cir. 2000), aff’d
sub nom. New York v. FERC, 535 U.S. 1 (2002).
11. Regional Transmission Organizations, 65 Fed. Reg.
810, 817 (2000) (“Order No. 2000”).
12. 18 CFR Part 35 Transmission Planning and Cost
Allocations, Order No. 1000, 136 FERC ¶61,051 (2011) (“Order
No. 1000”), order on reh’g, Order No. 1000-A, 139 FERC ¶61,132
(2012) (“Order No. 1000-A”).

9
The statute effectively excludes non-incumbents
from participating in new transmission projects within
the state at a time when the electric grid is anticipated
to require large-scale investments to accommodate the
burgeoning renewable electric generation industry. For
reasons explicitly identified in inquiries before FERC,
ROFR provisions effectively relegate non-incumbents,
including multi-state enterprises that are developing
projects throughout the national grid, to bystander status.
“The very purpose of the Commerce Clause was to
create an area of free trade among the several States.”
Michigan-Wisconsin Pipe Line Co. v. Calvert, 347 U.S.
157, 170 (1954). The Minnesota Statute repudiates that
standard. Fixing squarely on the interstate component
of the electricity transmission industry in Minnesota, it
affirmatively disrupts free trade in favor of a commandand-control approach that explicitly favors incumbent
companies.
Under FERC rules, the costs of major new transmission
infrastructure are allocated across the entire multistate RTO. Thus, the Minnesota Statute has direct
consequences to out-of-state consumers, which bear
the rates for transmission services designed to recover
costs on a regional basis. Not surprisingly, a statute that
arrogates market control to one state, with potential cost
consequences borne by consumers in other states, creates
incentives for reciprocal measures. The Petition identifies
instances in which this trend has already emerged.
Petitioner is an active and established participant in
the interstate transmission system in other states, but
not in Minnesota, where it could serve a vital role as an
additional, alternative participant to local incumbents.

10
That potential is foreclosed and interstate trade thus
restrained by the preclusive effects of the state’s
protectionist statute.
The disruption of free trade damages the efficient
functioning of the interstate transmission system
and unjustly and unreasonably increases the price of
electricity paid by Amici Curiae Interstate Consumers.
ARGUMENT
I.

The Minnesota Statute Explicitly Targets Interstate
Commerce.

As the very title of the Minnesota Statute proclaims,
its subject and object is “Federally Approved Transmission
Lines” over which the state confers “Incumbent
Transmission Lineowner Rights.”13 The statute directly
affects federally regulated facilities by dictating what
entities may engage in the ownership and construction
of interstate transmission of electricity within the state,
in effect posting a “do not enter” sign at the Minnesota
border for companies without a Minnesota presence. In
short, the statute facially discriminates against interstate
commerce and therefore violates the Commerce Clause.
City of Philadelphia v. New Jersey, 437 U.S. 617, 624 (1978)
(facially discriminatory statutes raise “a virtually per se
rule of invalidity”).
The Minnesota Statute defines an “incumbent” as
any “public utility that owns, operates, and maintains an
electric transmission line in this state. . ..”14 Incumbents,
13. See Minn. Stat. §216B.246.
14. Minn. Stat. § 216B.246 subd. 1.

11
but not others, are eligible for a valuable right:
An incumbent electric transmission owner
has the right to construct, own, and maintain
an electric transmission line that has been
approved for construction in a federally
registered planning authority transmission
plan and connects to facilities owned by that
incumbent electric transmission owner. The
right to construct, own, and maintain an electric
transmission line that connects to facilities
owned by two or more incumbent electric
transmission owners belongs individually
and proportionally to each incumbent electric
transmission owner, unless otherwise agreed
upon in writing.15
The use of the present tense verb, “owns,” in the definition
of “incumbent,” and the corresponding reference to
facilities “owned” by such entities in the quoted provision
excludes any future transmission owner from exercising
such a right, ensuring that there will be no future
additions to the roster of incumbents. In essence, the state
has ossified the existing structure of the transmission
industry in Minnesota, and contravened FERC’s exclusive
jurisdiction under the FPA to regulate the “transmission
of electric energy in interstate commerce” by public
utilities. 16 U.S.C. §824(b)(1).16
15. Minn. Stat. § 216B.246 subd. 2.
16. The nomenclature employed, “public utility,” is also
drawn from the federal statute, which establishes the scope of
federal authority as applying to such an entity.

12
The right conferred by the Minnesota Statute on
incumbent transmission owners applies within the
confines of that state, but to specific federally approved
facilities. Although the federal authority is not named in
the statute, the federal authority is FERC:
An incumbent electric transmission owner
has the right to construct, own, and maintain
an electric transmission line that has been
approved for construction in a federally
registered planning authority transmission
plan and connects to facilities owned by that
incumbent electric transmission owner.
Minn. Stat. §216B.246, Subd. 2. (emphasis added.) The
italicized language refers to regional organizations
governing interstate aspects of the electric utility
industry, or RTOs, pursuant to regulations adopted by
FERC. Those organizations have been structured and
empowered in a series of measures originating in the
mid-1990s and continuing to the present, the stated
goal of which has been “a more competitive electricity
marketplace.” Public Util. Dist. No. 1 of Snohomish
County v. FERC, 272 F.3d 607, 610-11 (D.C. Cir. 2001).
These same purposes undergird MISO. Midwest ISO
Transmission Owners v. FERC, 373 F.3d 1361 (D.C. Cir.
2004). MISO is an RTO that operates facilities that are
owned by other, constituent member public-utility entities.
The jurisdictional division between interstate and
local commerce was explicitly addressed by FERC in its
seminal Order No. 888 series, which was upheld in all
relevant respects on judicial review.

13
Order No. 888 required that transmission utilities
furnish non-discriminatory access to interstate facilities.
When FERC found that that requirement did not fully
accomplish its efficiency goals, it adopted more pointed
directives to “transmission-owning utilities” to participate
in RTOs that would plan and oversee the facilities that
such utilities owned. Order No. 2000 at 817. Order Nos.
888, 2000, and 1000 form the complementary elements
of the regulatory framework that now govern electric
transmission services in interstate commerce in certain
regions, including the MISO region that includes
Minnesota.
Even as it moved to segregate, or “unbundle,”
wholesale transmission services, FERC recognized that
the states would retain oversight authority in specified,
purely local matters. Order No. 888 at 31,782, nn.543,
544; New York, 535 U.S. at 24. State authority over local
service issues, however, was delineated as remaining
distinct from the interstate transmission function, which
the RTOs were designed and empowered to administer.
Thus, the explicit reference to regional planning
organizations in the Minnesota Statute directly
incorporates and ratifies a jurisdictional delineation
under which RTOs have been created and are supervised.
The very language used in the Minnesota Statute
acknowledges, and conclusively demonstrates, the intent
of the state legislation to affect interstate commerce and
the interstate transmission of electricity within the state
of Minnesota.
As noted, Order No. 888 encouraged — but did not
require — the development of multi-utility RTOs. The

14
concern was that the segmentation of the transmission
grid among different utilities, even if each had functionally
unbundled transmission, contributed to inefficiencies that
impeded free competition in the market for electric power.
Combining the various segments and placing control of the
grid in one entity — an RTO — was expected to overcome
these inefficiencies and promote competition. Order No.
888 at 31,730-32; petition denied, Public Utility District
No. 1, 272 F.3d 607 (D.C. Cir. 2001).
Notably, the Minnesota Statute adopts no ROFR or
other standard for any activities other than interstate
transmission. The ROFR applies explicitly, and exclusively,
to certain interstate commerce within its borders,
specifically, the interstate transmission of electricity
that is the subject of prior “federal” review and approval.
FERC regulates such commerce through RTOs under its
exclusive federal jurisdiction, and the state undermines
FERC’s regulatory authority and FERC’s prior orders by
attempting to mandate a state preference for local entities.
This case presents a clear instance in which a state
has deliberately acted to “discriminate against or burden
the interstate flow of articles of commerce.” It violates the
negative proscription of the Commerce Clause. Oregon
Waste Systems, Inc. v. Department of Environmental
Quality of Ore., 511 U.S. 93, 98 (1994).
II. The Minnesota Statute Indisputably Restrains
Trade In The Interstate Transmission Market.
The policy initiatives that FERC brought about in
its landmark Order No. 888 and related measures were
dependent on the creation of a consolidated authority

15
over electric transmission facilities and services within a
specified region, the purpose being, consistent with the
Commerce Clause, to enhance the role of free trade in
the national interstate electricity market. “Since 1996, to
facilitate the development of competitive wholesale power
markets, FERC has required power utilities to provide
non-discriminatory open access transmission services.
To this end it has encouraged creation of RTOs—entities
consolidating control of all transmission services in a
particular region.” Braintree Electric Light Dept. v.
FERC, 550 F.3d 6, 8 (D.C. Cir. 2008).
Under the new regulatory regime, two of the three
traditional sectors of that market – generation and
transmission – have been exposed to both a broader
range of participants and a reduction in barriers to
competitive influences. Order No. 888 explicitly recognized
that the scope of these measures was consistent with
the demarcation of regulatory responsibilities between
interstate commerce and local matters, over which local
authorities remained undisturbed. That order explicitly
addressed the distinction between transmission that
occurred in interstate commerce, which was one of the
prime objects of the new regulatory regime, and purely
local transmission, which was not subjected to the planning
or coordinating features of the regional organizations then
being structured.
Thus, the Minnesota Statute, referring to “federallyapproved transmission lines,” changes the terms under
which interstate commerce is conducted, and ventures
into federal regulatory territory administered exclusively
by FERC.

16
The Minnesota Statute creates a right that no market
participant would otherwise have: an ability to deny
market entry to a potential competitor, and thereby
to preserve a monopoly role in the development and
ownership of additional transmission facilities. Rather
than enabling competition as FERC Order No. 1000
envisions and requires, the state has sought to minimize
it. “[T]he history of Part II of the Federal Power Act
indicates an overriding policy of maintaining competition
to the maximum extent possible consistent with the public
interest.” Otter Tail Power Co. v. United States, 410 U.S.
366 at 374 (1973). The Minnesota Statute constrains such
competition by intervening in one of the most fundamental
aspects of competition, the right of entry into a market.
The statute is tantamount to an absolute bar, much like
the state law that effectively banned trucks of a certain
dimension from operating within Wisconsin. Raymond
Motor Transp. Inc. v. Rice, 434 U.S. 429, 447 (1978). As
in Raymond, the banned activity/actor is common in
other states. Petitioner LSP and other similarly situated
multi-state transmission companies have established
operations in states other than Minnesota. The statute
effectively ensures that they will be unable to own or
operate interstate transmission lines in Minnesota or
compete for new expansions of facilities in Minnesota that
will be used in interstate transmission.
Through the federal policy of unbundling, FERC has
sought to expand the roster of transmission participants
and has fostered the development of stand-alone
transmission entities, including the Petitioner itself.
Indeed, a transmission entity that joins an RTO can
be eligible for an “independence” adder to its FERC-

17
authorized return on equity investment if it is not affiliated
with any other market participants. As the Federal Trade
Commission has noted, the existence of a federal right
of first refusal in jurisdictional tariffs and agreements
“reduces capital investment opportunities for potential
nonincumbent developers by increasing their risk,
encourages free ridership among incumbent developers,
and creates a barrier to entry.” Order No. 1000 at ¶ 231.
A state statute that fails to address these deleterious
effects on interstate commerce, or even to acknowledge
them, effectuates a constraint on interstate commerce for
the same reasons and trespasses on the area of free trade
that the Commerce Clause mandates.
The Minnesota Statute thus represents an explicit
retreat from a burgeoning, more diversified and competitive
transmission industry to the detriment of consumers such
as those represented here, who depend on the efficient
functioning of the interstate transmission market and just
and reasonable electric prices. The “incumbents” that are
afforded preferential treatment under the statute are in
most instances affiliates of traditional retail utilities that
occupied an exclusive position as owners and operators of
utility facilities during the fully bundled world of pre-open
access transmission, which the D.C. Circuit has given the
useful shorthand designation, “the bad old days.” Midwest
ISO Transmission Owners v. FERC, 373 F.3d 1361, 1363
(D.C. Cir. 2004).
In creating the ROFR for new transmission facilities,
Minnesota has effectively restored a key feature of the
old regime, affording an important tool of predominance
over local electric service that was found, nearly thirty
years ago and repeatedly since then, not to be suited to

18
electric industry conditions. The state-created ROFR
grants a sinecure to established transmission providers,
at the expense of customers that depend on the continuing
growth of alternatives to the incumbents and potential
transmission companies.
The statute under review, and the viral growth of
such statutes that it may presage, validate FERC’s
concern over state laws that might “balkanize” the electric
transmission systems serving the interstate market. This
is in part a function of the geographic characteristics of
transmission.
MISO encompasses portions of fifteen states as
well as the Canadian province of Manitoba. A project
subject to RTO review and approval could present
various geographic configurations, with facilities being
constructed wholly within a single state, crossing a
boundary between two states, or occupying multiple states,
thereby necessitating multiple state border crossings.
Statutes such as the Minnesota Statute would present
a potential project sponsor with an array of potential
constraints. Illustratively, the prospective transmission
participant could be foreclosed entirely from a project
if the incumbent in a single state exercised the state’s
ROFR. It could be foreclosed from ownership of only those
facilities located in one of two states if such rights were
conferred and obtained within a single state, with the
resulting hybrid of ownership left unresolved as a practical
and legal matter, or it could find that it is foreclosed from
owning and operating a portion or portions of multistate
facilities, which might even cross the same boundary
more than once. The consequent disruption of planning
and operation would serve as a dictionary representation
of “balkanization.”

19
The Minnesota Statute and ROFR statutes based on
the same model in other states operate to restrain trade
in the most blatant and fundamental way, and thus violate
the Commerce Clause. By specifying a limited class of
business entities that may compete for future interstate
transmission construction projects, and thereby dictating
the roster of competitors in one important sector of the
energy industry, such statutes preclude competitors from
operating in that area of interstate trade.
These statutes, if allowed to remain in effect,
represent a textbook violation of the Commerce Clause.
III. The Eighth Circuit’s Analysis of the Purpose and
Effects of The Statute is Superficial and Inaccurate:
The Statute Plainly Discriminates Against NonLocal Competitors, With Harm to Consumers.
For the reasons discussed above, the Minnesota
Statute is facially unsound under the Commerce Clause
analysis. In its analysis of the Minnesota Statute, the
Eighth Circuit ignores its preclusive effects, adopting a
superficial characterization of “neutrality.” This confounds
the reason RTOs were established: “to overcome these
inefficiencies and promote competition.” Midwest ISO
Transmission Owners, 373 F.3d 1361.

20
A.

The “Long- Standing ” Minnesota State
Practice That the Statute Seeks to Preserve
Only Allows Transmission Facilities to Be
Built By The Holder of the Exclusive Franchise
For That Territory; The ROFR Thus Effectively
Excludes Only Out-of-State Project Sponsors
and Is In No Sense “Neutral”.

Notwithstanding the characterization of the Minnesota
Statute as resting on a “neutral” differentiation among
local and multi-state participants in the interstate
transmission of electricity, the distinction in the statute
plainly discriminates against multi-state transmission
operators. This distinction is not “neutral” as it pertains
to instate and out-of-state entities for the simple reason
that only out-of-state entities are excluded from the
analysis. The court below suggests that multi-state
entities are simply treated the same as an instate utility
that seeks to construct transmission facilities within the
exclusive service territory of another state utility: there
is no suggestion that any such circumstance has ever
transpired, however. Thus, no instate utility has ever been
excluded from transmission outside its service territory,
and the “neutral” application of the ROFR reduces to
a de facto distinction between instate and out-of-state
participants.
Indeed, no Minnesota utility other than an incumbent
could compete to build transmission facilities, as the state
affirmed in its brief to the Eighth Circuit.17 There, it
describes state law as conferring a monopoly on all electric
17. Brief of Defendants-Appellees Lange, et al. at 28-32,
LSP Transmission Holdings, LLC v. Sieben, 954 F.3d 1018 (8th
Cir. 2020) (No.18-2559).

21
utilities operating within the state, within the confines
of their respective franchise areas. Thus, the only entity
that could compete with an incumbent is an out-of-state
utility. The ROFR forecloses that competition, and thus
facially discriminates against any out-of-state entity that
would otherwise proceed with a new transmission project.
B. The Commerce Clause Does Not Authorize
States to Determine How Much Interstate
Commerce Should Be Allowed Within Their
Borders.
The court below found that the statute imposed
no undue burden on interstate commerce because the
record did not establish that the cumulative effect of
state ROFR laws would “eliminate competition in the
market completely.” App. 21. This finding exhibits a
superficial understanding of both the facts and relevant
economic principles and incorporates a misreading of
the protections afforded interstate commerce. It fails to
acknowledge that even a little restraint on competition can
have major impacts if the restraint applies at the point of
an expansion.
The panel effectively reads the Commerce Clause as
accommodating a pro-rata analysis, authorizing each state
to determine how much interstate commerce should be
allowed to function freely within its boundaries and how
much interstate commerce should be restrained to suit a
state’s priorities. There is no support in the text or case
law for such a reading.
Second, the panel’s economic analysis fails to confront
the material facts of the case. First, the court appears to

22
rely on a proportionate measure of the instate incumbents
in existing interstate transmission within Minnesota:
the relevant dimension, however, is how competition by
multi-state entities would be precluded from expansions
of the existing transmission grid. By that standard, the
court could not make any finding because “incumbents”
could wholly foreclose new entrants depending on
whether they elected to exercise the ROFR created in
Minnesota. Moreover, in economic terms, the specific
element of interstate transmission markets that is the
subject of this dispute is the marginal supply of interstate
transmission capacity, i.e., the new and growing supply
that is being planned by MISO to accommodate demand
for new interstate transmission capacity. The statute could
effectively extinguish new, multi-state entrants from that
market.
The court’s economic analysis suggests that the
Commerce Clause allows states to enact legislation that
interferes with competition in interstate commerce as
long as there is some residual commerce that can be
identified that is not inhibited by the restraint. Again,
such a reading would effectively neutralize the purpose
of the Commerce Clause: ensuring the interstate market
is an area of free trade. The Minnesota Statute plainly
divides potential project sponsors into two categories, one
of which is occupied by out-of-state entities that violates
the Commerce Clause.
It is not left to individual states to determine
whether they can intervene to create local exceptions
in an otherwise clearly assigned function of a federal
regulatory scheme. Congress has demonstrated that it is
responsible for identifying such instances and has done
so. See, e.g., Section 15 USC Section 717(c), (exempting

23
certain intrastate natural gas transactions conducted in
interstate commerce from regulation under the Natural
Gas Act). Congress has not done so here, and no state can
disregard the scope of interstate commerce within its
borders or impede its operations by granting a preference
to local entities over others.
IV. By Impeding Transmission Competition, ROFR
Laws Increase the Energy Costs and Operating
Costs of Manufacturers, Industrial Consumers,
and Large-Scale Electric Purchasers.
Interstate Consumers support FERC’s orders
and policies seeking to reduce electric transmission
costs through increased competition in the interstate
transmission market. CMTC, IECA, and AF&PA represent
manufacturers and other large industrial consumers that
consume substantial quantities of electricity. RPGI’s
members are large scale electric purchasers. By providing
a ROFR and monopoly control to incumbent utilities
over the ownership, construction, and maintenance of
new, federally regulated transmission lines, ROFR laws
insulate those utilities from competition, and thereby
impose higher electric transmission costs on consumers.
Without competition, there are fewer checks and balances
on cost estimates, and no pressure or incentive to curb
project costs and prevent cost overruns. Competition is
critical because transmission plant in service has grown
exponentially over the last decade – from $127.6 billion in
2010 to $337.4 billion in 2019.18
18. See “Comments of American Manufacturers,” Electric
Transmission Incentives Policy Under Section 219 of the Federal
Power Act, FERC Docket No. RM20-10-000, Exhibit No. AMF-1
(Affidavit of Michael P. Gorman) at 8-9 (filed July 1, 2020).

24
Two recent competitive processes conducted by
MISO demonstrate competition’s benefit.19 MISO received
comprehensive proposals from 11 different respondents
for ownership, construction, and maintenance of the DuffColeman 345 kV project. 20 It received proposals from nine
different respondents for the Hartburg-Sabine Junction
500 kV project. 21 The winning proposals in both instances
resulted in estimated cost savings of 15% over MISO’s
projected costs, along with a cost cap, and other benefits
that would have been foregone if a ROFR statute had been
in effect in those states.
New transmission system capacity is needed in the
MISO region to connect generation resources to the load
centers where the electricity is ultimately consumed.
New transmission projects can have an estimated 40year life and allow the transmission owner to recover
the costs of that project and earn a return on and of
that project investment through a FERC-regulated
annual transmission revenue requirement. The cost of
19. Duff-Coleman EHV 345 kV Competitive Transmission
Project Selection Report, p. 5, 38 (December 20, 2016), available at
https://cdn.misoenergy.org/Duff-Coleman%20EHV%20345kv%20
Selection%20Report82339.pdf (last visited December 5, 2020);
Hartburg-Sabine Junction 500 kV Competitive Transmission
Project, Selection Report, p. 5 (November 27, 2018), available at
https://cdn.misoenergy.org/Hartburg-Sabine%20Junction%20
500%20kV%20Selection%20Report296754.pdf (last visited
December 5, 2020).
20. Duff-Coleman EHV 345 kV Competitive Transmission
Project Selection Report, p. 5.
21. Ha r tbu rg- Sabine Junction 50 0 kV Competitive
Transmission Project, Selection Report, p. 5.

25
the project will be recovered from consumers over many
years. Therefore, ensuring competition for large-scale
transmission projects (that are needed now) will have
repercussions for consumers for many years from now.
Because energy is a significant operational cost and
one of the top expenditures for industrial consumers,
significant increases in electricity costs impact the
viability and competitiveness of their businesses.
Manufacturers open, close, and relocate their businesses
due in large part to the cost of energy and the regulatory
environment of a particular area. Today, manufacturers
and other industrial consumers face significant domestic
and international competition, a concern that has
been magnified over the last year due to the economic
and health challenges associated with the COVID-19
pandemic. During a time when transmission competition
is poised to provide significant and necessary costs savings
for consumers, ROFR laws backpedal on promise of Order
1000 and would only serve to unjustly and unreasonably
increase transmission costs.
Additional major transmission infrastructure projects
are imminent. MISO recently reported that requests
for new renewable electric power generation facilities
could overwhelm available transmission system capacity.
Since renewable resource-based generation facilities are
often distant from the load centers that consume the
electricity, MISO recognizes that major enhancements
to its transmission system are needed to connect many
of these new facilities over a wide geographic area to
balance the variability in renewable resource availability. 22
22. ITC Midwest LLP, Partners in Business Presentation,
October 21, 2020, pp. 59-63, available at https://www.itc-holdings.

26
These projects will run through Iowa and Minnesota
and potentially other states that have enacted ROFR
statutes, which means that Interstate Consumers will
pay higher rates than would be the case if the ownership,
construction, and maintenance of each project is subject to
competition. The Minnesota Statue violates the Commerce
Clause and should be struck down.
CONCLUSION
The Eighth Circuit erred in determining that the
Minnesota Statute did not violate the Commerce Clause.
For this reason, the Interstate Consumers respectfully
urge this Court to grant the Petition herein.
		Respectfully submitted,
Robert A. Weishaar, Jr.
Kirk Howard Betts
McNees Wallace
Counsel of Record
and Nurick LLC
James H. Holt
1200 G Street, NW, Suite 800
David E. Crawford
Washington, DC 20005
Betts & Holt LLP
(202) 898-5700
1101 Connecticut Ave., NW,
Suite 450
Counsel for Amici Curiae
Washington, DC 20036
Coalition of MISO
(202) 530-3380
Transmission Customers,
kbetts@bettsandholt.com
Industrial Energy
Counsel for Amicus Curiae
Consumers of America and
Resale Power Group of
American Forest
Iowa
and Paper Association

com/docs/default-source/partners-in-business/midwest-partnersin-business-documents/itcmw-pib-slides-fall-2020-final-forwebsite-10-20-20.pdf?sfvrsn=e662cbf6_2.

27
Kenneth R. Stark
McNees Wallace
and Nurick LLC
100 Pine Street
Harrisburg, Pennsylvania 17101
(717) 232-8000
Counsel for Amici Curiae
Coalition of MISO
Transmission Customers,
Industrial Energy Consumers
of America and American
Forest and Paper Association
Dated: December 10, 2020

